   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




September 7, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Hudson River HealthCare, Inc.’s Process for
               Compiling and Reporting Selected Recovery Act Data (A-02-10-02011)


Attached, for your information, is an advance copy of our final report on Hudson River
HealthCare, Inc. (Hudson River). We will issue this report to Hudson River within 5 business
days. The review was requested by the Recovery Accountability and Transparency Board.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175, or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-02-10-02011 in all correspondence.


Attachment
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
  REVIEW OF HUDSON RIVER
 HEALTHCARE, INC.’S PROCESS
FOR COMPILING AND REPORTING
SELECTED RECOVERY ACT DATA




                    Daniel R. Levinson
                     Inspector General

                     September 2010
                      A-02-10-02011
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
September 9, 2010

Report Number: A-02-10-02011

Ms. Anne Kauffman Nolon, M.P.H.
President and Chief Executive Officer
Hudson River HealthCare, Inc.
1200 Brown Street
Peekskill, NY 10566

Dear Ms. Nolon:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Results of Limited Scope Review of Hudson River
HealthCare, Inc.’s Process for Compiling and Reporting Selected Recovery Act Data. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Glenn H. Richter, Audit Manager, at (518) 437-9390, extension 227, or through email at
Glenn.Richter@oig.hhs.gov. Please refer to report number A-02-10-02011 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Anne Kauffman Nolon, M.P.H.


Direct Reply to HHS Action Official:

Ms. Sandy Seaton
External Audits, A-133
Health Resources and Services Administration
Office of Federal Assistance Management/Division of Financial Integrity
Room 11A-55, Parklawn Building
Rockville, MD 20857
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
  REVIEW OF HUDSON RIVER
 HEALTHCARE, INC.’S PROCESS
FOR COMPILING AND REPORTING
SELECTED RECOVERY ACT DATA




                    Daniel R. Levinson
                     Inspector General

                     September 2010
                      A-02-10-02011
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

To promote transparency and accountability, section 1512 of the Recovery Act requires each
recipient of Recovery Act funds to report on its use of funds to the applicable Federal agency not
later than 10 days after the end of each calendar quarter. The reports should include, among
other things, the total amount of Recovery Act funds received, funds expended, project status,
final project report indicator, and the number of jobs created or retained with Recovery Act
funds. To implement section 1512, the Office of Management and Budget (OMB) issued
guidance to Federal awarding agencies for reporting Recovery Act data.

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health Center
Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C. § 254(b). Within
HHS, the Health Resources and Services Administration (HRSA) administers the Health Center
Program. Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009,
including $2 billion to expand the Health Center Program to serve more patients, stimulate new
jobs, and meet the significant increase in demand for primary health care services among the
Nation’s uninsured and underserved populations. HRSA has provided guidance on compiling
and reporting Recovery Act data to health centers awarded Recovery Act funds which
incorporates OMB’s guidance to Federal awarding agencies.

Hudson River HealthCare, Inc. (Hudson River), is a nonprofit health center organized in 1975 to
provide medical, dental, and addiction services to residents throughout New York State’s
Hudson Valley. Hudson River is primarily funded by patient service revenues and Federal,
State, and local government grants. During FY 2009, HRSA awarded Hudson River a 2-year
Recovery Act grant totaling $917,282 for increases in health care services.

Our review covered recipient data submitted during the second and third reporting periods. The
second reporting period covered October 1 through December 31, 2009, and the third reporting
period covered January 1 through March 31, 2010.

OBJECTIVE

Our objective was to determine whether Hudson River’s processes for compiling and reporting
selected data provided reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.



                                                 i
SUMMARY OF FINDINGS

Hudson River’s processes for reporting the selected data elements in the second and third
reporting periods generally provided reasonable assurance that it complied with section 1512
requirements of the Recovery Act. Specifically, Hudson River accurately reported funds
received, funds expended, project status, and the final project report indicator. However, Hudson
River:

   •   overstated the number of jobs retained by 38.02 full-time equivalents (FTE) in the second
       reporting period by inappropriately counting jobs funded with non-Recovery Act funds,
       and

   •   overstated the number of jobs retained by 37.47 FTEs in the third reporting period by
       inappropriately counting jobs funded with non-Recovery Act funds.

According to Hudson River officials, these deficiencies occurred because Hudson River
misinterpreted HRSA guidance on compiling Recovery Act data. The reporting errors could
have resulted in the public being misled or confused by Hudson River’s use of Recovery Act
funds.

RECOMMENDATIONS

We recommend that Hudson River:

   •   follow current HRSA reporting guidance and

   •   ensure that similar errors are not made in subsequent reporting periods.

HUDSON RIVER COMMENTS

In written comments on our draft report, Hudson River concurred with our recommendations and
described completed and ongoing actions to address our findings. Hudson River’s comments are
included in their entirety as the appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              American Recovery and Reinvestment Act ...................................................1
              Section 1512 Reporting Requirements ..........................................................1
              Office of Management and Budget Implementing Guidance ........................1
              Health Resources and Services Administration .............................................2
              Hudson River HealthCare, Inc. .....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          DATA ELEMENTS REPORTED .............................................................................4
               Recovery Act Reporting Requirements .........................................................4
               Data Elements Accurately Reported ..............................................................5
               Data Elements Inaccurately Reported ............................................................5
               Conclusion .....................................................................................................5

          RECOMMENDATIONS ...........................................................................................6

          HUDSON RIVER COMMENTS ..............................................................................6


APPENDIX

          HUDSON RIVER COMMENTS




                                                                    iii
                                            INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets. The
Recovery Act provides approximately $145.7 billion to the Department of Health & Human
Services (HHS).

Section 1512 Reporting Requirements

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. A recipient
includes any non-Federal entity, other than an individual, that receives Recovery Act funds
directly from the Federal Government. Section 1512 reporting requirements apply mainly to
recipients of grants, contracts, and loans for discretionary programs. Section 1512(c) requires
each recipient to report to the applicable Federal agency, not later than 10 days after the end of
each calendar quarter:

    •   the total amount of Recovery Act funds received and the amount that was expended or
        obligated;

    •   a detailed list of all projects for which Recovery Act funds were expended or obligated,
        including the project name, description, and completion status and an estimate of the
        number of jobs created or retained; and

    •   detailed information on payments to subrecipients and vendors.

Office of Management and Budget Implementing Guidance

To implement section 1512 of the Recovery Act, on June 22, 2009, OMB issued memorandum
M-09-21, which requires recipients to report detailed information on their projects. 1 This
guidance applies to recipients of grants, loans, tribal agreements, cooperative agreements, and
other forms of assistance. During the second reporting period, October 1 through December 31,
2009, OMB updated its guidance (memorandum M-10-08) to incorporate lessons learned from
the first reporting period (ended September 30, 2009) and address recommendations of the
Government Accountability Office. The update simplified the manner in which job estimates are

1
  Section 3.1 of M-09-21 requires that the information reported by recipients and subrecipients of Recovery Act
funds be submitted through FederalReporting.gov, reviewed by the funding agency, and published on Recovery.gov.
Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed in Supplement 1 of
M-09-21.

                                                       1
calculated and reported. Specifically, recipients now report job estimates on a quarterly, rather
than a cumulative basis; all other data elements are still reported cumulatively. Recipients are no
longer required to sum various data on hours worked across multiple quarters of data when
calculating job estimates. In addition, recipients are no longer required to make a subjective
judgment on whether jobs were created or retained as a result of the Recovery Act.

Health Resources and Services Administration

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act, codified at 42 U.S.C.
§ 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national program
designed to provide comprehensive primary health care services to medically underserved
populations through planning and operating grants to health centers. Within HHS, the Health
Resources and Services Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit, private, or public entities that serve
designated medically underserved populations, including migrant and seasonal farm workers, the
homeless, and residents of public housing. Health centers funded by HRSA are community
based, patient-directed organizations that meet the definition of “health center” under 42 U.S.C.
§ 254(b).

Under the Recovery Act, HRSA received $2.5 billion in fiscal year (FY) 2009, including
$2 billion to expand the Health Center Program to serve more patients, stimulate new jobs, and
meet the significant increase in demand for primary health care services among the Nation’s
uninsured and underserved populations.

On December 29, 2009, HRSA issued the third edition of the Health Center Quarterly Reporting
Manual (the reporting manual), which incorporates OMB’s revised guidance. 2 The reporting
manual provides guidance to assist health centers awarded Recovery Act funds report section
1512 Recovery Act data elements. In addition, the reporting manual requires recipients to report
on a limited number of health center program performance elements to allow HRSA to report on
and demonstrate the impact of health center activities funded under the Recovery Act. To further
assist recipients in reporting Recovery Act data elements, HRSA holds a quarterly technical
conference call that addresses reporting requirements.

Hudson River HealthCare, Inc.

Hudson River HealthCare, Inc. (Hudson River), is a nonprofit health center organized in 1975 to
provide medical, dental, and addiction services to residents throughout New York State’s
Hudson Valley. Hudson River is funded primarily by patient service revenues, and Federal,
State, and local government grants. During FY 2009, HRSA awarded Hudson River a 2-year
Recovery Act grant totaling $917,282 for increases in health care services.



2
 Subsequent to our review period, on June 23, 2010, HRSA issued the fifth edition of the Health Center Quarterly
Reporting Manual for the quarter ending June 30, 2010.

                                                        2
OBJECTIVE, SCOPE, METHODOLOGY

Objective

Our objective was to determine whether Hudson River’s processes for compiling and reporting
selected data provided reasonable assurance of compliance with section 1512 requirements of the
Recovery Act.

Scope

Our review covered recipient data submitted during the second and third reporting periods. The
second reporting period covered October 1 through December 31, 2009, and the third reporting
period covered January 1 through March 31, 2010. We reviewed Hudson River’s processes in
compiling and reporting Recovery Act data elements for the second reporting period and the
actions taken to enhance data quality for the third reporting period. Specifically, we selected the
data elements for funds received, funds expended, project status, final project report indicator,
and jobs created or retained to ensure compliance with section 1512 requirements of the
Recovery Act. To gain an understanding of Hudson River’s compiling and reporting of
Recovery Act data elements, we conducted a limited review of the internal controls related to our
audit objective.

We performed our fieldwork at Hudson River’s administrative office in Peekskill, New York,
during May 2010.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed Hudson River’s HRSA Increased Demand for Services (IDS) 3 grant application
        and award;

    •   reviewed Hudson River’s Recovery Act reported data elements and comments reported
        on FederalReporting.gov;

    •   interviewed personnel to gain an understanding of Hudson River’s Recovery Act
        reporting processes;

    •   performed analytical procedures to determine the reasonableness of the reported data
        elements when compared with supporting documentation for expenditures and funds
        received;



3
 The IDS award made available by the Recovery Act supports health centers in addressing the increased demand for
services nationwide, as well as creating employment opportunities in underserved communities over a 2-year period.

                                                        3
   •   reconciled the number of jobs created or retained to payroll records to determine the
       reasonableness of the number of jobs reported; and

   •   discussed our findings with Hudson River’s officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Hudson River’s processes for reporting the selected data elements in the second and third
reporting periods generally provided reasonable assurance that it complied with section 1512
requirements of the Recovery Act. Specifically, Hudson River accurately reported funds
received, funds expended, project status, and the final project report indicator. However, Hudson
River:

   •   overstated the number of jobs retained by 38.02 full-time equivalents (FTE) in the second
       reporting period by inappropriately counting jobs funded with non-Recovery Act funds,
       and

   •   overstated the number of jobs retained by 37.47 FTEs in the third reporting period by
       inappropriately counting jobs funded with non-Recovery Act funds.

According to Hudson River officials, these deficiencies occurred because Hudson River
misinterpreted HRSA guidance on compiling Recovery Act data. The reporting errors could
have resulted in the public being misled or confused by Hudson River’s use of Recovery Act
funds.

DATA ELEMENTS REPORTED

Recovery Act Reporting Requirements

OMB memorandum M-09-21, section 2.5, states that all data contained in each quarterly
recipient report will be cumulative to encompass the total amount of funds expended to date.
However, OMB later issued memorandum M-10-08 allowing for recipients to report job estimate
information on a quarterly basis, rather than a cumulative one.

OMB memorandum M-10-08 states that the estimated number of jobs created or retained should
be expressed as FTEs. Specifically, OMB memorandum M-10-08 states that in calculating an
FTE, the number of actual hours worked in funded jobs are divided by the number of hours
representing a full work schedule for the kind of job being estimated. These FTEs are then
adjusted to count only the portion corresponding to the share of the job funded by Recovery Act
funds. All other reporting elements continue to be reported cumulatively.

                                                4
HRSA’s reporting manual restates OMB’s guidance that FTEs will be reported only to the extent
that Recovery Act funds are used.

Data Elements Accurately Reported

Hudson River was in compliance with HRSA guidance in the reporting of second period data
elements for funds received, funds expended, project status, and final project report indicator.
Specifically, Hudson River accurately reported $240,432 of funds received and expended and it
reported the IDS grant project status as less than 50 percent completed. Therefore, Hudson River
correctly reported the final project indicator as “not completed.”

Data Elements Inaccurately Reported

Overstated the Number of Jobs Retained for the Second Reporting Period

Hudson River overstated the number of jobs retained by inappropriately counting jobs funded
with non-Recovery Act funds. Specifically, in April 2009, Hudson River used non-Recovery
Act funds to purchase a mental health facility located in Yonkers, New York, which had planned
to close. Hudson River officials stated that they would not have had the organizational capacity
to administer the facility without Recovery Act funds. The officials stated that they believed
Recovery Act funds were indirectly related to Hudson River’s being able to retain jobs at the
facility and included these jobs in Hudson River’s Recovery Act reporting data. However, the
methodology used by Hudson River to calculate its second period jobs was inconsistent with
HRSA guidance to report only the jobs funded by Recovery Act funds. As a result, Hudson
River overstated the number of jobs reported by 38.02 FTEs (51.06 FTEs reported less 13.04
FTEs that should have been reported).

Overstated the Number of Jobs Retained for the Third Reporting Period

Hudson River overstated the number of jobs retained by inappropriately counting jobs funded
with non-Recovery Act funds. Specifically, Hudson River continued to inappropriately report
the number of FTEs for jobs retained at the Yonkers, New York, mental health facility. As a
result, Hudson River overstated the number of jobs reported by 37.47 FTEs (51.06 reported less
13.59 FTEs that should have been reported).

Conclusion

Hudson River had implemented a review process for gathering and reviewing data elements
before submitting data to FederalReporting.gov. However, the process was not designed to
detect errors caused by the misinterpretation of HRSA guidance on calculating Recovery Act
FTE jobs retained.

HRSA questioned the number of jobs reported in the second and third reporting periods in emails
and in comments to Hudson River on FederalReporting.gov. After the second reporting period,
HRSA emailed Hudson River that there was an error in the number of jobs Hudson River

                                               5
reported. After the second and third reporting periods, HRSA commented on
FederalReporting.gov that Hudson River’s reported FTE jobs appeared to be high in relation to
Recovery Act funds received. HRSA referred Hudson River to updated guidance and requested
that it either revise or explain its jobs numbers. According to Hudson River officials, HRSA’s
email and posted comments did not specifically indicate why Hudson River’s reported numbers
were overstated. However, the officials acknowledged they did not immediately respond to the
email, reply to the comments, or contact HRSA to obtain additional clarification. Subsequent to
the third reporting period, Hudson River officials responded to HRSA’s comments and, based on
ensuing discussions, the officials stated that they realized why they had overstated Hudson
River’s FTE jobs numbers.

The reporting errors could have resulted in the public being misled or confused by Hudson
River’s use of Recovery Act funds.

RECOMMENDATIONS

We recommend that Hudson River:

   •   follow current HRSA reporting guidance and

   •   ensure that similar errors are not made in subsequent reporting periods.

HUDSON RIVER COMMENTS

In written comments on our draft report, Hudson River concurred with our recommendations and
described completed and ongoing actions to address our findings. Hudson River’s comments are
included in their entirety as the appendix.




                                                6
APPENDIX 

                 APPENDIX: HUDSON RIVER COMMENTS 





                                                corn rn u n ityhealth
                                                                                        c
                                                  Hudson River HealthCare, Inc.

July 29, 20 10

Mr. James P. Edell
Regional Inspect or Gcncrul for Aud it Services
Oflice of Inspect o r General , Region II
Jacob Javitz Federal Building
26 Federal Plaza, Room 3900
New York. NY 10278

Dear Mr. Eden:

Hudson River HeahhCare Inc. (HR HCarc) is in receipt of your repon "UCSIIIIS ofUmi/Cd
Stvpc! Ucl"icw (if Hudson Ui\"er Healrhrarc, Inc. '" Prrx:e.I'S/or Compiling and lkporlin);
Selected I?ccol'ery Act /Jaw" dated July 27. 20 10. As directed in your cover letter.
HRHCare is submitting comments o n the repo rt and its reco mmendations.

Recommendation 1: O IG recommends that HRHCare follow current HRSA reporti ng
guidance.

       HRJ-I Care is in concurrence with this recommendation and intends 10 comply with
       all HRSA guidance on reponing of Recovery Act dma. Previously. HRHCare
       panici paled in all HRSA·spon sored quanerl y calls and reviewed all HRSA·
       developed manual s. HRHCare will continue to engage in these activities to
       ensure compliance with all HRSA reponin g guidance. In addition. HR HCare will
       respond to any HRSA communicatio ns regarding qual1crly rcpol1S to cnsurc that
       any questions regard ing submitted data are responded to promptl y and
       appropriately.


Recommendation 2: O IG recommend s thaI HRHCare ensure Ihal similar elTOrs are not
made in subsequent reponing periods.

       HR HCare is in concurrence with this reCOllimendation. As directed by HRSA.
       HRH Care submitted a revised quarterly repon on Jul y 10111. 2010 that is consistent
       with Ihe HRSA reponing guidance,

If you have an y additional questions regardin g thi s response, please contact me at
9 14.134.8147 or at anolon@ hrhcare.o rg.


Sincerely.

Anne K. Nolon
Presidenl & CEO
